The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
OFFICE OF INSPECTOR GENERAL




     UNITED STATES INTERNATIONAL TRADE COMMISSION

                                 WASHINGTON, DC 20436


September 9, 2011                                                          OIG-JJ-012


Chairman Okun:

This memorandum transmits the Office of Inspector General’s final report, Inspection of
Physical Security, OIG-SP-11-012. In finalizing the report, we analyzed management’s
comments on our draft report and have included those comments in their entirety as
Appendix A.

This report contains 22 recommendations over six subject areas. In the next 30 days,
please provide me with your management decisions describing the specific actions that
you will take to implement each recommendation.


Thank you for the courtesies extended to the inspector during this evaluation.




Philip M. Heneghan
Inspector General
                    U.S. International Trade Commission
                                                    Inspection Report



                                                 Table of Contents


Physical Security Program and Results of Inspection................................................... 1

Subject Areas & Recommendations................................................................................ 2

   Subject Area 1: Vehicle inspection and parking garage security ................................... 2

   Subject Area 2: Perimeter Alarm/Intrusion Detection System and Kastle Key
   inventory ......................................................................................................................... 3

   Subject Area 3: FPS building security level determination............................................ 5

   Subject Area 4: Physical building security in the areas of communication, stairwell,
   and CCTV ....................................................................................................................... 5

   Subject Area 5: Liaison with local police and consistent communication with the
   FPS.................................................................................................................................. 7

   Subject Area 6: Employee training, written procedures, and guidance.......................... 8

Management Comments and Our Analysis.................................................................. 12

Objective, Scope, Methodology, Standards, and Relevant Documents ..................... 12

Appendix
 Appendix 1: Management Comments on Draft Report..…………………...…………A




                                                                    i
OIG-SP-11-012
           U.S. International Trade Commission
                          Inspection Report


                (This page intentionally left blank.)




                                 ii
OIG-SP-11-012
             U.S. International Trade Commission
                                   Inspection Report


                          Physical Security Program
The Commission’s physical security program is not documented in a Commission
Directive; however, it includes, but is not limited to physical building access including
ingress, egress, and internal access to Commission space; on-site parking and garage
space; perimeter security; guards; interior security; communication and liaison with local
and federal security forces; and planning, education, and training.

Because the Commission does not have a formally documented physical security
program of its own, the criteria against which the physical security program was
inspected included government-wide accepted best practices.

The criteria were drawn from:
   1. Federal Protective Service Building Security Assessments of USITC’s building
        security December 22, 2004 and December 21, 2008
   2. General Services Administration regulations pertaining to physical security
   3. U.S. Department of Justice, “Vulnerability Assessment of Federal Facilities,”
        June 28, 1995
   4. USITC Directive 3050.0, “Emergency Recovery Contingency Plan,” March 8,
        1993
   5. USITC Directive 3051.0, “Emergency Evacuation of the USITC,” November 3,
        1994
   6. USITC Directive 1020.6, “Office of Administration,” May 20, 2010
   7. Security guard contract
   8. Security guard Post Orders
   9. Commission building lease

                              Results of Inspection
The objective of this Inspection was to determine whether the physical security program
at USITC is sufficient as determined by (1) statutory and regulatory baselines and (2)
agency need. The physical security program is not sufficient.

The Commission’s Physical Security Program is not sufficient because weaknesses and
deficiencies were identified in the areas of: (1) vehicle inspection and parking garage
security; (2) the Perimeter Alarm/Intrusion Detection System and Kastle Key inventory;
(3) FPS building security level determination; (4) physical building security in the areas
of communication, stairwells, and CCTV; (5) liaison with local police and consistent
communication with the Federal Protective Service (FPS); (6) and employee training,
written procedures, and guidance. The lack of having a documented physical security
program is itself a problem. In addition, past physical security reviews identified some of
the same issues and they are still unresolved.



                                            1
OIG-SP-11-012
                U.S. International Trade Commission
                                          Inspection Report


                          Subject Areas & Recommendations

                                             Subject Area 1:

                    Vehicle inspection and parking garage security

Weaknesses and deficiencies in the security of the garage area and vehicles coming into
the parking area have been a concern since the Office of Inspector General review in
1996. There are no security cameras in the garage area, there are exceptions in the
identification procedures used for entering vehicles, and vehicles are not thoroughly
screened prior to entering the parking area.

Garage Security
In response to a survey question regarding garage security, management stated that “the
parking attendant walks through the garage and reports suspicious activity.” While the
parking attendant may occasionally walk through the parking garage, the parking
attendant does not patrol the garage, the security guards do. The Captain of the guard
force states that the roving guard patrols garage eight times a day, once an hour; however,
there are no cameras in the garage therefore the garage is only monitored for a fraction of
the time it is open and accessible.

Vehicle Security - Identification
The Paragon guard contract requires guards to exit the guard booth to verify identity.
Based on in-person observation, this does not happen very often. Usually, the guard looks
at the driver and may glance at the ID that is flashed for a second or two before the car
drives into the garage. This does not meet the requirements in the contract.

In addition, the guard Post Orders require all drivers and passengers to show a valid
government photo ID except for “assigned facility Judges and SES’s.” There is no
reasoning or justification provided for this exception. When asked about it, the guard
Captain explained that this exception had been in the Post Orders “for a while” and was
based on a Commission request to deviate from the standard process.

Vehicle Security - Screening
According to the Post Orders, the guards are not required to conduct a trunk or
undercarriage inspection of vehicles entering the parking area. The only requirement for a
vehicle to enter the garage is that the driver and passengers display a federal
identification 1. The Captain of the guards states that this is a weak security posture for the

1
  Pursuant to the Post Orders, a “”visual inspection” of the interior” of the vehicle is required. According to
the Captain of the guards, this is only to ensure that all passengers display federal identification and not to
inspect for contraband or other threats.


                                                       2
OIG-SP-11-012
             U.S. International Trade Commission
                                  Inspection Report


Commission and that, in addition to trunk and undercarriage inspection, a barrier should
be placed in front of the garage entrance to ensure that vehicles do not bypass the guard
booth and drive directly into the garage without verification. When management was
asked about why the additional screening, which has been recommended since 1996, was
not implemented the response was that “access is limited to employees and Federal ID
card holders” only and because “employees can walk into the building without being
screened.” Both statements are true; however, all parties acknowledge that more than
USITC employees are parking in the garage and simply because a federal employee is
parking in the garage does not mean that there are no threats in or on the vehicle about
which the employee may or may not know.

Recommendation 1:

Add CCTV cameras to the garage area to ensure consistent monitoring.

Recommendation 2:

Eliminate the exception for Judges and SES employees and require all entrants into the
garage, drivers and passengers, to display federal photo identification.

Recommendation 3:

Implement vehicle inspection procedures commensurate with the building security level.



                                    Subject Area 2:

  Perimeter Alarm/Intrusion Detection System and Kastle Key inventory

Since 2004, the Commission’s intrusion detection system (IDS) and Kastle Key system
have been malfunctioning and sending multiple false alarms to FPS a month. There is no
set Commission process for responding to an alarm and there is no functioning tracking
system for establishing who should have a Kastle Key and what access is appropriate.

Intrusion Detection System False Alarms
Since 2004, the Commission’s alarm systems have been malfunctioning and triggering an
average of 10 false alarms a month. When these alarms are triggered, a call goes to the
FPS MegaCenter which dispatches FPS officers to respond to the alarm. The false alarms
are costing the government money and time. Commission management and the guard
force acknowledged the false alarms but, according to Commission management, the
alarm vendor is not responsive to Commission requests for assistance.



                                            3
OIG-SP-11-012
              U.S. International Trade Commission
                                   Inspection Report



No process for responding to alarms
Three management officials and the Captain of the guards were asked about alarm
response procedures and all gave a different account of how management would be
notified. Some said that the alarm company would call the FPS MegaCenter directly;
some said that the alarm company would call the Commission management officials
listed as points of contact; some said that emails would be sent out; and some said a
combination of all of the above. Based on these responses and a lack of written guidance-
-there is no clear process for how management is notified of an alarm. In addition, when
the management points of contact were reviewed, two of the three people listed were
incorrect listings. Finally, when management was asked what they are supposed to do if
the alarm company contacted them, their responses were different, and no one knew what
to do if the alarm company contacted them during an evening or weekend.

Kastle Key Inventory
Kastle Keys are how employees access the Commission from the outside and internally
move around the building. According to Commission management, the Kastle Key
inventory system is out of date and inaccurate. This lack of control creates a vulnerability
for the Commission. The Kastle Key system must be accurate in order to determine who
has physical access and that the access is appropriate.

Recommendation 4:

Review communication, testing, inspection, and repair clauses in the Kastle contract and
require the vendor to comply.

Recommendation 5:

Set up a regular process to test the system for malfunctions.

Recommendation 6:

Develop a written alarm response process with third-party partners and test the process
frequently.

Recommendation 7:

Conduct an internal review of the Kastle Key inventory system to ensure that appropriate
access is provided.




                                             4
OIG-SP-11-012
                U.S. International Trade Commission
                                         Inspection Report



                                           Subject Area 3:

                       FPS building security level determination

In 2008, FPS lowered the security threat level for the Commission building from a four to
a three. The security threat level is determined by the Vulnerability Assessment of
Federal Facilities established by the Unites States Marshall Service, June 28, 1995. The
scale goes from one to five – one being the lowest threat and five being the highest.

Security Threat Rating
Since 2002, the FPS security threat level for the Commission building has been a four. A
typical level four building has over 450 federal employees; is more than 150,000 square
feet; has high-volume public contact; and the tenant agencies may include high-risk law
enforcement and intelligence agencies, courts, judicial offices, and highly sensitive
government records 2. The Alfred P. Murrah Federal Building in Oklahoma City fell into
this category.

The FPS Inspector delivered the new lower threat level and an explanation in November,
2008 and the Commission never responded. During this inspection, management stated
that they disagreed with the new lower rating and will contact FPS to discuss whether the
new rating is appropriate for the Commission. According to FPS, their findings are only a
recommendation and the final determination rests with the tenant.

Recommendation 8:

Contact FPS to discuss the new security threat rating and determine whether the new
lower rating is appropriate for the Commission.



                                           Subject Area 4:

    Physical building security in the areas of communication, stairwell, and
                                      CCTV

Within the ITC, there is no building wide public address system to announce emergencies
or evacuations and the security in the stairwells of the building is not sufficient. In
addition, the CCTV system is in disrepair and the guards do not have access to the
camera recordings.

2
 This information is taken from the Vulnerability Assessment of Federal Facilities established by the
Unites States Marshall Service, June 28, 1995.


                                                     5
OIG-SP-11-012
              U.S. International Trade Commission
                                    Inspection Report



Building Communication
In the event of an emergency or should an evacuation take place, there is no public
address system to notify all employees on all floors of instructions or provide direction.
In response to the inspection survey, management originally stated that the Commission
phone system could be used as a public address system. After further questioning,
management stated that it could not. According to the draft Commission COOP Plan, in
lieu of voice announcements, messages would be sent to employees via email and
voicemail. While this is one possibility, in the case of an emergency having employees
dialing the phone or clicking through to Outlook seems unlikely. Further, according to
the guard contract and their Post Orders, the guards are not responsible for evacuating the
building.

Stairwell Safety
As a result of this inspection, both management and the guards acknowledged that the
stairwells pose a security weakness. There are insufficient cameras in the stairwells and
there is no Kastle Key reader from the stairwell in the parking garage into the building.
According to the inspection survey, there are only three cameras in the stairwells. There
are four stairwells that connect between all of the floors of the building, thus there are
only three cameras for 28 access points to Commission space.

In addition to the lack of cameras, there are no Kastle Key readers on the access points
from the garage to the stairwells. This means that anyone can access the stairwell and
move to any of the upper floors of the building without having to first check in with the
guard desk.

CCTV
The Commission’s CCTV system is broken. In the area of real time monitoring, several
cameras are malfunctioning and the monitor used by the guards at the front desk is not
working. In the area of recording and review, the guards do not have access to the video
room and have no way of ensuring that the cameras are recording or reviewing the tapes
in the event of a security incident.

Recommendation 9:

Establish alternative public address solutions for Commission space.

Recommendation 10:

Install additional cameras to cover the stairwells.

Recommendation 11:

Install Kastle Key readers at stairwell points of entry from the garage.

                                              6
OIG-SP-11-012
              U.S. International Trade Commission
                                   Inspection Report



Recommendation 12:

Test the CCTV system, cameras and monitors, and fix broken equipment.

Recommendation 13:

Provide the guards with access to the CCTV recording room.



                                     Subject Area 5:

   Liaison with local police and consistent communication with the FPS

The Commission must have a strong contact with local law enforcement and FPS. This
contact allows the Commission to ask questions and request information that impacts
Commission employees. It also ensures that the Commission will receive information that
relates to employee security.

Local Police Contact
Commission management and FPS have agreed that FPS provides the primary response
to any security incidents occurring within the ITC building; however, it is still beneficial
for Commission security personnel to have a liaison and regular communication with
local law enforcement. For example, a security notice was distributed to other federal
agencies located in the L’Enfant vicinity regarding crime in the area. The security
message was never received by Commission security personnel. The security message
was eventually distributed to Commission personnel three days later after an employee
from one of those agencies forwarded the message to a Commission employee and that
employee forwarded it to Commission security personnel. It is essential that Commission
security personnel be included in any and all law enforcement communications that
impact Commission employees.

FPS Contact
During the course of this inspection, multiple questions went unanswered due to the
unresponsiveness of the Commission’s FPS contact. Questions included results of
surprise inspections and drills held by FPS; the types of scenarios tested by FPS; and
training requirements set by FPS for the guard force. The Commission must be made
aware of any weaknesses in the guard force or areas where ITC security personnel should
focus with employee training and drills. FPS is the Commission’s primary resource for
physical security and they must respond to questions and requests for information.




                                             7
OIG-SP-11-012
             U.S. International Trade Commission
                                  Inspection Report


Recommendation 14:

Establish a liaison and regular communication with local law enforcement.

Recommendation 15:

Send a letter to FPS management regarding unresponsiveness of the FPS liaison and
request better customer service.



                                    Subject Area 6:

            Employee training, written procedures, and guidance

The absence of employee training and a lack of written procedures and clear security
guidance were identified in all areas. Everything from proper training for the mailroom
personnel to identify suspicious packages to established procedures for VIP building
access was missing. All aspects of security must be addressed for a strong security
program to exist and employee training, procedures, and guidance are one of the easiest
and lowest cost areas to strengthen.

Building rules and regulations
Commission security building rules and regulations are not posted in an easy to access
location and in an easy to understand format. These must be posted so that visitors and
employees are on notice of what is expected of them when they access the ITC building.
They must also be easily accessible in case employees or visitors have questions
regarding security practices.

Mailroom personnel training
It is unclear when or how mailroom personnel have been trained to properly identify and
handle suspicious packages and mail. Commission management could not provide a
consistent answer to this question which demonstrates a weakness in security. Further,
management stated that “all mail and packages are x-rayed and visually inspected at the
front lobby and loading dock” but could not describe what “visually inspected” meant or
what it included. Suspicious mail and packages are a constant security threat and
providing frequent training for mailroom employees is an easy way to strengthen this
area of protection.

Drills and tests for employees and guards
Multiple questions were asked of Commission management and the guards regarding
surprise drills run and tests delivered to the guards and employees. Due to the poor
communication between the Commission and FPS as discussed above, the Commission
has no documentation regarding surprise drills and tests FPS has run to check the

                                            8
OIG-SP-11-012
              U.S. International Trade Commission
                                   Inspection Report


adequacy of the guard force. Few, if any, drills have been run which include employees
as participants. A fire drill was run last year involving Commission employees but no
other scenarios, including emergency evacuation, shelter in place, lockdown, or medical
emergencies, have been run. Further, in light of the guard force Post Orders which state,
“[e]vacuating a building for fire, earthquake, natural disaster, bomb threat or a suspicious
package is not the guard’s responsibility,” the Commission should run various scenario
drills on a frequent basis to ensure that employees are aware of their responsibilities.

Basic security training for employees
The Commission has no materials and does not provide basic physical security training to
employees. The training that is provided on an annual basis addresses Information
Security only. According to the FPS standards of review, this is not an acceptable best
practice. Like the discussion of posting building rules and regulations and holding
employees drills above, basic security training for employees is a necessary part of a
basic security program.

Documented security procedures
The Commission lacks basic documented physical security procedures such as VIP
visitor access and the reporting of security incidents. When asked for the process for both
of these scenarios, many different responses were provided, none of which were
documented anywhere. In order to ensure uniform implementation of any procedure, it
must be written down. The VIP visitor process is ad hoc depending on who is requesting
the access and who the visitor is. This poses a significant security deficiency, particularly
when the visitor is a non-US citizen. A written request and approval process should be in
place and a log of these requests should be retained.

Similar to the VIP visitor process, the Commission lacks a documented procedure for
employees reporting security incidents. Commission management and the Captain of the
guard force all gave different definitions of “security incident” and could not provide a
consistent process for Commission employees to follow if they wanted to report an
incident. All employees must know what to report and to whom they should report any
incidents they feel pose a threat to security.

Recommendation 16:

Update all Commission Directives relating to physical security.

Recommendation 17:

Post building rules and regulations in an easy to access location and in an easy to
understand format.




                                              9
OIG-SP-11-012
             U.S. International Trade Commission
                                   Inspection Report


Recommendation 18:

Provide regular training to mailroom personnel on identifying threatening or suspicious
mail and packages.

Recommendation 19:

Conduct regular drills with employees and guards and document results; Drills will
include emergency evacuation, shelter in place, lockdown, medical emergencies, and fire
drills.

Recommendation 20:

Develop materials and identify a date to implement basic physical security training for
Commission employees.

Recommendation 21:

Review all physical security responsibilities and existing written policies and procedures
and create or update them to accurately reflect roles and responsibilities.

Recommendation 22:

Document VIP visitor access and the reporting of security incidents.

                                    Past Reviews
The Commission’s physical security program was inspected by the USITC Office of
Inspector General in 1996 and again by the FPS in 2004 and 2008. Another FPS
inspection is scheduled for December 2012.

The OIG’s inspection in 1996 identified 13 problem areas. The FPS inspection in 2004
identified eight problem areas, two of which – loading dock access, and vehicle
inspection - were identified previously in the 1996 inspection. Finally, the FPS inspection
in 2008 identified five problem areas – the two listed above from the 1996 and 2004
inspections plus false alarms coming from the Perimeter Alarm/Intrusion Detection
System (IDS), magnetometer location, and CCTV monitoring.

The following recommendations have been outstanding since 1996:
   x Vehicle inspection for building parking lot; increased control over parking

The following recommendations have been outstanding since 2004:
   x Vehicle inspection for building parking lot; increased control over parking

                                            10
OIG-SP-11-012
             U.S. International Trade Commission
                                 Inspection Report


   x   Perimeter Alarm/IDS false alarms

The following recommendations have been outstanding since 2008:
   x Vehicle inspection for building parking lot; increased control over parking
   x Perimeter Alarm/IDS false alarms




                                          11
OIG-SP-11-012
             U.S. International Trade Commission
                                  Inspection Report


              Management Comments and Our Analysis
On August 29, 2011, Chairman Deanna Tanner Okun provided management comments to
the draft inspection report. The Chairman agreed with our conclusion that the physical
security program was not sufficient. She also noted that the Commission established a
new Office of Security and Services and assigned an employee to serve as the Director of
Security and Support services. Both actions will help the Commission address the six
areas discussed in the report and establish a strong physical security program. The
Chairman’s response is provided in its entirety as Appendix A.


    Objective, Scope, Methodology, Standards, and Relevant
                          Documents
Objective:
The objective of this inspection is to determine whether the physical security program at
USITC is sufficient as determined by (1) statutory and regulatory baselines and (2)
agency need.

Scope:
The scope of this inspection is (1) the physical security program at USITC and (2) any
other areas that support the physical security program

Methodology:
The methodology used during this inspection included (1) questionnaire, (2) in-person
interviews, (3) in-person observation, (4) document review

Standards:
The inspection will be conducted in accordance with the CIGIE established “Quality
Standards for Inspection and Evaluation.”

Other Documents and Policies Reviewed During Inspection:
   1. USITC Office of Inspector General Audit Report, “Review of Building Security,”
      Report Number IG-02-86, April 1996
   2. Commission Draft Occupant Emergency Plan, February 16, 2011
   3. Guard training certificates
   4. Commission COOP Plan, May 6, 2010
   5. Commission security training materials




                                            12
OIG-SP-11-012
           U.S. International Trade Commission
                        Appendix A




                            A
OIG-SP-11-012
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
